PROOF OF SERVICE
I hereby declare a copy of the foregoing has been served on the interested parties
by first class mail as follows
General Counsel’s Office
Oklahoma Pardon and Parole Board
2915 N. Classen Blvd., Suite 405
Oklahoma City, OK 73106.
Oklahoma Attorney General’s Office
313 NE 21st St.
Oklahoma City, OK 73105
Pursuant to 28 U.S.C. § 1746.
June 19, 2020

Herman T. Clark

18

CERTIFICAT OF COMPLIANCE
NO.

HERMAN TRACY CLARK
PETITIONER
Vs
JEROLD BRAGGS, WARDEN
RESPONDENT
As required by Supreme Court Rule 33.1(h), I certify that the petition for writ of
certiorari contains 4,686 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 19, 2020.

Herman T. Clark

19

